Semiannual Report to Congress - April 1, 1999 through September 30, 1999
Semiannual Report to Congress
April 1, 1999 through September 30, 1999
Inspector
General Letter
Agency Profile
Office
of Inspector General
Audit Program
Investigations
Program
Legislation,
Regulations, and Policy
Liaison
Activities
Information
Required by the Act
Audit
Reports by Subject Matter
Reports
with Questioned Costs
Reports
with Recommendations that Funds be put to Better Use
Inspector
General
National Labor Relations Board
Washington, DC 20570
I hereby submit this Semiannual Report: April 1 - September 30, 1999,
which summarizes the major activities and accomplishments of the Office of
Inspector General (OIG) of the National Labor Relations Board. The
submission of this report is in accordance with the Inspector General Act
of 1978, as amended (IG Act). Section 5 of the IG Act requires that the
Chairman transmit this report to the appropriate committees or
subcommittees of the Congress within 30 days of its receipt.
This is my first semiannual report since becoming Inspector General at
the NLRB in June 1999. In the four months that I have been here, the OIG
staff has made a tremendous effort to work with me to revise office
policies and procedures, while continuing with the normal workload of
audits and investigations. Significant administrative accomplishments
included completion of a memorandum of understanding for agency support
services, becoming involved in the agency process to develop regulations,
assisting in the designation of two Audit Follow-up Officials, updating
office policy on record retention, and purging ten years of files. OIG has
attempted to become more open in its dealings with the Agency by sharing
draft documents, posting memoranda on the internal electronic bulletin
board, visiting field sites, and meeting monthly with the Chairman and
General Counsel.
While doing these new activities, the "meat and potatoes" work
continued. In the investigations program, OIG processed 58 contacts,
initiated 11 cases, and closed 18 cases. The investigations resulted in
four referrals for prosecution, five personnel actions, and $177,645 in
funds put to better use or recovered. OIG also issued one audit report,
one inspection memorandum, and completed a significantly revised Annual
Audit Plan. Details on these accomplishments can be found in the body of
this report.
I appreciate the support of the Agency in making many of these changes,
not the least of which was improving the appearance of the office. I look
forward to the next period when we intend to continue our outreach efforts
by finalizing brochures on OIG operations, and developing a web page as
part of the Agency's official web site.
s/Jane E. Altenhofen
October 31, 1999
AGENCY
PROFILE
The National Labor Relations Board (NLRB or Agency) is an independent
federal agency established in 1935 to administer the National Labor
Relations Act (NLRA). The NLRA is the principal labor relations law of the
United States, and its provisions generally apply to private sector
enterprises engaged in, or to activities affecting, interstate commerce.
NLRB jurisdiction includes health care institutions and the U.S. Postal
Service (other government entities, railroads and airlines are not within
the NLRBs jurisdiction.)
The NLRB seeks to serve the public interest by reducing interruptions
in commerce caused by industrial strife. It does this by providing orderly
processes for protecting and implementing the respective rights of
employees, employers, and unions in their relations with one another. The
NLRB has two principal functions: (1) to determine and implement, through
secret ballot elections, the free democratic choice by employees as to
whether they wish to be represented by a union in dealing with their
employers and, if so, by which union; and (2) to prevent and remedy
unlawful acts, called unfair fair labor practices, by either employers or
unions or both.
NLRB authority is divided by law and delegation. The five-member Board
primarily acts as a quasi-judicial body in deciding cases on formal
records. The General Counsel investigates and prosecutes unfair labor
practices before administrative law judges, whose decisions may be
appealed to the Board; and, on behalf of the Board, conducts secret ballot
elections to determine whether employees wish to be represented by a labor
organization.
The NLRB Board consists of the Chairman and four members who are
appointed by the President with the advice and consent of the Senate. The
Board Members serve staggered terms of five years each. The General
Counsel is also appointed by the President with the advice and consent of
the Senate and serves a four-year term. The present Board Members and
General Counsel have served throughout this reporting period.
The NLRB received an appropriation of $184,451,000 for Fiscal Year (FY)
1999, of which $221,000 was rescinded, to fund 1,880 full-time
equivalents. On July 30, 1999, the NLRB received an additional $348,000
for analysis and testing of telephone equipment, and replacing equipment
to prepare for the year 2000.
NLRB Headquarters is at 1099 14th Street, NW Washington, DC.
In addition to the Headquarters building, employees are located in 51
field offices throughout the country. The field offices include 33
regional offices, 16 resident offices, and 2 sub-regional offices. Three
satellite offices for the Administrative Law Judges are located in
Atlanta, San Francisco, and New York.
Additional information about NLRB can be found on the web site ../../../
OFFICE OF INSPECTOR
GENERAL
The NLRB established the Office of
Inspector General (OIG) pursuant to the 1988 amendments to the Inspector General Act of
1978 (IG Act).
Resources
The FY 1999 OIG budget was $707,200 for operations, of which $20,600
was for contract services. In addition to the Inspector General, the OIG
consists of a Counsel/Assistant Inspector General for Investigations,
Assistant Inspector General for Audits, Special Agent, two Auditors, and a
Staff Assistant. One of the auditor positions was vacant the entire
semiannual reporting period.
In August 1999, the OIG hosted a student volunteer for one week. This
government-wide program was designed to give participating agencies the
opportunity to promote public service careers and to better prepare
students for eventual entry into the workplace. The Greater Washington
Urban League Summer Youth Program and the Office of Personnel Management
sponsored the program. The student assigned to OIG searched the web sites
of nearly 60 federal OIGs for Privacy Act statements and drafted a Privacy
Act statement for the NLRB OIG web site currently being developed. She
also updated several chapters of the OIG Audit Manual to reflect changes
made in policy and procedures.
Memorandum of Understanding
The IG Act provides for independent contracting and personnel authority
for inspectors general and requires agencies to provide resources
supporting OIG operations. Larger OIGs have their own personnel,
contracting, and support services. The size of the NLRB OIG does not
justify allocating dedicated resources for these functions, which have
previously been supplied by the Agency without a formal agreement clearly
defining OIG authority.
The Inspector General developed a Memorandum of Understanding (MOU)
which provides for the furnishing of such services by the Agency in a
manner that preserves OIG integrity and independence. The Inspector
General, Chairman, and General Counsel signed the MOU on August 16,
1999.
Special Achievements
The Assistant Inspector General for Investigations and Special Agent
were presented an Award for Excellence by the Inspector General community.
The award recognizes these individuals for an outstanding investigation
into time and attendance abuse, where the documented pattern of abuse
resulted in $168,000 being put to better use. It was particularly
noteworthy since the nature of the finding allowed for the Agency's
utilization of the funds during the budget year.
An employee of NLRB's Finance Branch received a Special Act award from
the Inspector General in April 1999 for providing information regarding
fraudulent billing by a government contractor who supplied relocation
services to NLRB and other Federal agencies.
An employee of the Appellate Court Branch received a Special Act award
for serving as special counsel for the OIG in a case involving union
representation.
AUDIT
PROGRAM
The Inspector General is to provide policy direction for and to
conduct, supervise, and coordinate audits relating to program operations
of the Agency. We issued one audit report, one inspection memorandum,
completed the Annual Audit Plan , and assisted in the designation of two
Audit Follow-up Officials.
Reports Issued
We issued Audit Report OIG-AMR-28, Review of the Case Activity
Tracking System, on September 15, 1999. The OIG reviewed the
status of and conditions affecting the development and implementation of a
comprehensive information management system for mission operations. The
review covered the initial deployment of the Case Activity Tracking System
(CATS) at eleven field offices.
Feedback from field offices where CATS had been installed was
encouraging and positive. Personnel appreciated productivity benefits that
CATS provides because the features are tailored to field office functions.
The implementation of CATS, however, has not been without challenges. We
found inadequate long-range planning, data inaccuracies in using the new
system, and that methodologies to produce required reports had not been
developed.
CATS was designed to replace multiple systems, both manual and
electronic, used to collect and compile case handling data. CATS is also
intended to reengineer and standardize business processes, and serve as
the vehicle by which the Agency is implementing an enterprise-wide
computing and telecommunications infrastructure to serve Headquarters and
all field offices. The NLRB has invested approximately $7.6 million on
CATS design, development, and deployment in FYs 1995 through 1999.
A long-range plan that addressed deployment, transition, and
maintenance, and identified the resources needed to provide the supporting
hardware, software, and communications infrastructure had not been
developed and adopted. As part of the budget submission, a five-year plan
for CATS was prepared. In reality, plans were developed and executed on a
year-to-year basis to reflect the amount of funds available, which varied
greatly. This negatively impacted the ability to establish and maintain
direction for the project and the contract to support it.
A significant number of errors were made during the initial entry of
case data into CATS. Employees from field offices and Information
Technology Branch have reported problems and made suggestions to improve
CATS operations and accuracy. Due to a lack of resources, the Agency
decided to concentrate modifications on improving data accuracy before
continuing with future enhancements and development.
The capability to merge data from the Case Handling Information
Processing System (CHIPS) and CATS to produce the Monthly Election Reports
and the statutorily required Annual Report had not been developed. Until
full field office deployment of CATS, Monthly Election Reports and the
Annual Report will require the merging of data from CATS and CHIPS, which
CATS is replacing.
OIG recommended that the Chief Information Officer prepare and
implement an integrated management plan to bring CATS to completion,
identify transition assistance needed by field offices to ensure data
accuracy and integrity, and design programs to combine CATS and CHIPS data
for the Monthly Election Reports and the Annual Report. The Chief
Information Officer submitted written comments on the draft report that
stated he did not disagree with the findings and recommendations.
Subsequent to the review, the Agency created and implemented a process
to review the procedures and data of each region before that region is
allowed to convert to the new system. Also, a task force was created to
review the reports and recommend changes to the new system. That task
force completed the analysis that will result in changes to the system
reports during the year on October 22, 1999. Further, a process to merge
the data from CHIPS and CATS to prepare the Monthly Election Report had
been defined, developed, tested, and placed into production on August 30,
1999.
We issued a memorandum on the NLRB Performance Plan for FY 2000
on April 26, 1999. We informed management that the performance plan needed
improvement in three areas. First, the Agency should streamline the report
by focussing goals on program areas. Second, performance measures that
were not objective, measurable, and verifiable should be reconsidered.
Third, the plan should provide additional information on how the Agency
intends to verify and validate performance data.
Significant changes to the performance plan would necessitate a
revision of the Agency's strategic plan. The Agency is currently preparing
a Revised Strategic Plan to cover Fiscal Years 2000 - 2005. The Plan is
scheduled to be submitted to Congress in March 2000.
Ongoing Audits
As of September 30, 1999, ongoing audits included:
Audit of Casehandling by Board Members; and
Evaluation of Time and Attendance Practices.
Audit Work Plan
OIG made significant changes in developing the FY 2000 Audit Work Plan.
The Audit Universe, which identifies each organization, program, function,
and/or activity subject to audit, was revised to reflect the Agency
budget, staffing levels, results of the Agency's review in accordance with
the Federal Managers' Financial Integrity Act, and prior audit work. We
solicited management's input in developing the Annual Audit Work Plan.
Management responses were considered in conjunction with other factors
such as: statutory and regulatory requirements; financial impact; audit
experience and frequency; and sensitivity, newness, or changed conditions
in developing the final plan.
Audit Follow-up
The Inspector General coordinated with the Chairman and the General
Counsel to designate Audit Follow-up Officials as required by Office of
Management and Budget Circular No. A-50. The Chairman designated the
Executive Secretary and the General Counsel designated the Deputy General
Counsel as Audit Follow-up Officials for the Board and the General Counsel
sides of the Agency respectively. The Audit Follow-up Officials are
responsible for ensuring that: systems of audit follow-up, resolution, and
corrective action are documented and in place; timely responses are made
to all audit reports; and corrective actions are actually taken.
No audit recommendations were made in prior periods which have not been
implemented.
INVESTIGATIONS
PROGRAM
The Inspector General is to provide policy direction for and to
conduct, supervise, and coordinate investigations relating to the programs
and operations of the Agency. OIG
processed 58 contacts, initiated 11 cases, and closed 18 cases. The
investigations resulted in four referrals for prosecution, two that
occurred this period and two that occurred in prior periods that have not
been previously reported, five personnel actions, and $177,645 in funds
put to better use or recovered.
Case Workload
Contacts Processed
Open (4/1/99)
24
Received
58
Initiated
11
Initiated Investigation
9
Closed
18
Initiated Case:
Referred to Agency
3
Open (9/30/99)
17
Non-Investigative
Disposition
46
Referrals for Prosecution
Contract Fraud Information from an employee in the NLRB Division of
Administration indicated that a government contractor might be
overcharging the Agency for relocation expenses of an Agency employee. OIG
determined that the billing documents submitted by a subcontractor were
fraudulent. The prime contractor agreed to reduce the final billing from
$13,000 to $4,000, a $9,000 saving to the Agency.
Further investigation by the OIG determined that the sub-contractor had
defrauded other government agencies using similar methods. A joint
investigation with several other federal inspectors general and the
Federal Bureau of Investigation developed evidence indicating potential
wide ranging fraud in both government and other third party payee
moves.
In August 1998, OIG referred this case to the U. S. Attorney for civil
action. The U.S. Attorney referred the case to the Criminal Division of
the Department of Justice in August 1999. OIG-I-207
Threat to Board Agent OIG was informed that a Board Agent had been
threatened with bodily harm by a company president who was a respondent in
an unfair labor practice case before the Agency. The Board Agent was
attempting to review a list of subpoenaed documents at the company
facility, when the company president became upset. We interviewed regional
office and company employees, and concluded the company president's
actions constituted obstructing a Board Agent, an action that is
prohibited by the NLRA.
We referred this case to the U.S. Attorney for prosecution in August
1999. The U.S. Attorney withheld an opinion on prosecution pending
completion of the Board's case. No further incidents occurred.
OIG-I-247
Workers' Compensation Fraud Information was reported to the OIG
that a Board field attorney had fraudulently received workers'
compensation benefits over a two-year period while also conducting a
business. Due to a previous workers' compensation claim, the attorney was
required to file a form showing all sources of income, self-employment,
and/or ownership interest in any business. The attorney filed the form
every six months as required, showing no outside employment or
ownership/interest in any business. An investigation with the Department
of Labor (DOL) OIG found the attorney was a co-owner or primary officer in
at least four corporations.
In September 1997, we referred this case to the U.S. Attorney for
prosecution. The U.S. Attorney issued a pre-indictment letter, but later
declined to prosecute. We monitored the case through September 1999, but
no further activity occurred to warrant action. OIG-I-139
Perjury Information was reported to OIG that perjury had possibly
been committed in an unfair labor practice case pending in a regional
office. An individual provided an affidavit to the Agency indicating that
he had witnessed actions related to unfair labor practices by his
employer. The individual provided subsequent affidavits that his prior
testimony was false, and that the false testimony had been sought by a
union official in order to bring a case against the company. Our
investigation determined that the union official had taken no action to
influence the testimony. The individual failed to appear for appointments
scheduled to obtain an explanation of the conflicts in his sworn
affidavits.
In February 1998, we referred this case to the U.S. Attorney for
prosecution, but the case was declined. OIG-I-209
Funds Put to Better Use or Recovered
Leave Abuse OIG was informed that a senior agency employee was
utilizing extensive work time in the middle of the day for personal
purposes. The employee had an unusual work schedule starting at a very
early hour in order to accommodate time off during the workday. An OIG
investigation determined that the early morning hours of the workday were
being used for personal purposes rather than government duties. Annual
leave had not been charged for approximately 2800 hours when the employee
was not present for duty as required. As a result, the employee had
accumulated an extensive leave balance that would be paid out at
retirement.
After being informed of the findings of the investigation, the employee
requested a leave adjustment of 2800 hours, representing a dollar saving
of $168,000. The employee also retired from the Agency. We contacted the
Department of Justice concerning prosecution, but the Department deferred
to the Agencys action as an adequate remedy. OIG-I-234
Improper Payment Information was reported to the OIG that an Agency
employee who was receiving workers compensation had changed doctors even
though DOL had denied authorization to do so. An OIG investigation found
that the employee had been treated by the unauthorized doctor who had
received $645.32 in payment.
We notified DOL of these findings. DOL issued a charge back to the
employee in the amount of $645.32. The employee had retired before DOL
made the final ruling, so administrative action was not possible.
OIG-I-199
Personnel Actions
Travel Fraud Information was received by the OIG that an Agency
attorney was defrauding the government while in official travel status. An
OIG investigation substantiated the charges.
In December 1998, OIG referred this case to the Department of Justice,
Criminal Division. The attorney made restitution for the entire amount
claimed and was allowed to plead guilty to a criminal conflict offense as
part of a plea agreement made with the Department of Justice. The attorney
was terminated from federal service by the Agency in May 1999. The
employee filed a grievance regarding the termination, which will
eventually be heard by an arbitrator.
In July 1998, we referred this case to the Department of Justice, Civil
Division, to recover civil penalties for the travel claim addressed by the
Criminal Division and additional claims from a prior period of official
travel. OIG-I-140
Ethics Violation The OIG was told that a firm had hired an Agency
employee to provide information related to government business. The firm
is a private entity that provides services to companies opposing union
organizing campaigns. In prior periods, OIG determined that the firm hired
NLRB employees.
After completion and disposition of the cases against NLRB employees,
the OIG continued to assist the Department of Transportation OIG and
internal investigation units of the Treasury Department in investigations
of their employees who were also hired by this same firm. The OIG was
advised this period that administrative action was taken against two
employees of the Treasury Department and two employees of the Department
of Transportation. OIG-I-157, 158, 159
OSC Referral
The prior Inspector General referred a matter to the Chairman on March
31, 1999, and subsequently issued a report of flagrant and serious refusal
to cooperate with an investigation on April 9, 1999. The Chairman
responded in a letter to the appropriate Congressional committees on April
16, 1999. The response sufficiently addressed this matter.
The information or assistance requested appeared to be related to a
matter that had been referred to and was under investigation by the Office
of Special Counsel (OSC). We forwarded documentary evidence given to OIG
to OSC. We deferred gathering additional information through interviews
pending completion of the OSC investigation.
Hotline
Employees and members of the public with information on fraud, waste
and abuse are encouraged to contact the OIG. A log of telephone contacts,
either on a nationwide toll free number or the regular office numbers, has
traditionally been maintained. Beginning in June 1999, OIG also began to
track information received via mail and facsimile. All information
received, regardless of the method used, is collectively referred to as
HOTLINE contacts.
The information received over the hotline is the basis for the initial
review for potential investigations. The information is analyzed to
determine if further inquiry is warranted. Most HOTLINE
contacts are calls from members of the public seeking help on an
employment related problem or issues outside OIG and/or Agency
jurisdiction. As appropriate, we refer these callers to the appropriate
NLRB office, local, state or federal agency, or private resource that is
able to provide assistance.
During this reporting, OIG received 55 hotline contacts, of which 30
were telephone calls and 25 were in writing. Nine contacts resulted in OIG
investigations and one issue was referred to the Agency for action.
To further publicize the hotline to Agency employees, the Inspector
General designed and produced a poster that was distributed to all Agency
field offices. The poster is reproduced on the inside back cover of this
report.
LEGISLATION, REGULATIONS, AND
POLICY
The Inspector General is to review existing and proposed legislation
and regulations relating to programs and operations of the Agency and to
make recommendations concerning the impact of such legislation or
regulations. Similarly, we review Agency and OIG policy. We reviewed
four bills introduced this period, reviewed one Agency regulation, and
revised OIG policy on union representation and record
retention.
Legislation
The following bills were reviewed:
S. 870 Inspector General Act Amendments of 1999. A bill to amend
the IG Act to increase the efficiency and accountability of OIGs within
Federal departments. April 22, 1999.
S. 886 Foreign Relations Authorization Act, fiscal years 2000 and
2001. Amendment 690 No. 690 to transfer authority for criminal
investigations from State Department Inspector General to Diplomatic
Security Service. Amendment No. 727 to ensure that investigations and
reports of investigations, of the Inspector General of the Department of
State and the Foreign Service are thorough and accurate. June 22,
1999.
H.R. 1827 Government Waste Corrections Act of 1999. A bill to
improve the economy and efficiency of Government operations by requiring
the use of recovery audits by Federal agencies. May 17, 1999.
H.R. 2013 Amendments to the Inspector General Act of 1978 to
provide for the appointment of the Inspector General of federal entities
by the President of the United States. June 7, 1999.
Regulations
Within the NLRB, the Rules Revision Committee develops changes to
Agency procedural regulations. The Counsel to the Inspector General joined
the Committee in September 1999 in order to provide OIG input into the
regulation development.
The Agency developed extensive proposed changes to its existing
regulations implementing the Freedom of Information Act (FOIA) to
incorporate mandated changes for electronic communications. OIG reviewed
the proposed changes, and found the regulation was consistent with the
requirements of the law.
The proposed changes also clarified how FOIA requests to the Inspector
General or for OIG documents are processed. OIG recommended a number of
changes relating to FOIA access to records generated by or under the
control of the Inspector General. As a result of these recommendations,
the proposed regulation places initial responsibility for access and
denial with the Inspector General, with an appeal authority vested in the
Chairman.
OIG Policy
OIG modified its practice concerning union representation pursuant to a
U.S. Supreme Court decision. In a prior period, an Administrative law
Judge of the Federal Labor Relations Authority (FLRA) found the NLRB
violated an employee's rights when union representation was allegedly
denied during an investigative interview. This case was pending appellate
review by FLRA when the U.S. Supreme Court issued a related decision.
The Court found that under federal law the inspector general was
considered to be a representative of the agency for purposes of the
Weingarten rule. Generally, the Federal Weingarten rule gives an employee
the right to request union representation during any agency interview in
which the employee has a reasonable belief that the interview will result
in disciplinary action.
OIG modified its practices in accordance with the Supreme Court
decision, and communicated this to the FLRA. On September 23, 1999, FLRA
remanded the case to the Regional Director for action consistent with the
settlement agreement.
In December 1998, the National Archives and Records Administration
(NARA) withdrew General Records Schedule 22, Inspector General Records,
which authorized the disposal of the Inspector General files. OIG drafted
a records schedule in August 1999 in accordance with new guidance from
NARA. The draft was submitted to the Agency records management officer who
is coordinating an update of the Agency schedules with NARA.
We also initiated a major review of OIG files in accordance with the
revised schedule and Agency policy. Six boxes of audit files for the years
1984 through 1991 were destroyed by on-site shredding, and four boxes were
prepared for off-site storage.
LIAISON
ACTIVITIES
The Inspector General is to recommend policies for, and to conduct,
supervise, or coordinate relationships between the Agency and other
Federal agencies, State and local governmental agencies, and
nongovernmental entities. The Inspector General is to give particular
regard to the activities of the Comptroller General of the United States,
as head of the General Accounting Office (GAO). Similarly, we encourage
OIG staff members to participate in Agency programs and activities. OIG
staff members are active in the inspector general community and agency
activities. OIG reviewed and commented on two GAO
documents.
Inspector General Community
The Inspector General is a member of the Executive Council on Integrity
and Efficiency (ECIE), which consists primarily of the inspectors general
at the Federal entities designated in the 1988 amendments to the IG Act.
She also participates in activities sponsored by the President's Council
on Integrity and Efficiency (PCIE), which consists primarily of the
Presidentially-appointed inspectors general. The Inspector General is a
member of an ECIE ad hoc committee addressing issues on auditor
independence.
The Counsel participates fully in the Council of Counsels to Inspectors
General and the National Association of Bar Counsel. As Assistant
Inspector General for Investigations, he is active in the Association of
Inspectors General for Investigations, and is one of two ECIE
representatives on the PCIE Investigations Advisory Subcommittee of the
Investigations Committee. He is the chair of a working group on developing
the Qualitative Assessment Process for Investigations, a process similar
to audit peer review. Additionally, he is an instructor for the Government
Training Institute and participated in a three-day conference to develop a
curriculum for the Inspector General Criminal Investigator
Academy.
Non-governmental Entities
The OIG Special Agent, as the Deputy Assistant Inspector General for
Investigations, is the principal liaison officer to the federal law
enforcement community. He is a member of the Liaison Officers Association,
and currently serves on its executive board. This Association is composed
of designated liaison officers of all federal law enforcement agencies as
well as foreign police attaches. He is a member of the working group on
Affirmative Civil Enforcement organized by the U. S. Attorneys Office in
Baltimore.
General Accounting Office
In May 1999, we reviewed a draft report that summarized opinions of the
inspectors general on semiannual reports. The views on semiannual reports
in the GAO report represented those of the prior NLRB Inspector General.
Comments were submitted on broader issues, such as how the inspectors
general were characterized in the report and survey results compiled. The
final report, Inspectors General: Views on Semiannual Reports
(GAO/AIMD-99-203) was issued on August 25, 1999.
We also reviewed the May 1999 exposure draft Standards for Internal
Control in the Federal Government. Our response stated that the
document was clear and concise, and effectively addressed issues that have
evolved over the past several years such as the increased use of computer
technology and management initiatives relating to the Government
Performance and Results Act.
Agency Activities
The OIG Auditor is the NLRB Recreation and Welfare Association
Treasurer. The Association sponsors a variety of social and philanthropic
activities for Agency employees. In addition to serving as the financial
administrator, he helped coordinate activities including a food drive, a
fishing trip to the Chesapeake Bay, a trip to Atlantic City, and the
annual golf tournament.
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished
during this period are required by section 5(a) of the IG Act to be
included in the semiannual reports. These are set forth
below:
Section 5(a)
(1),(2),(7) OIG did not identify any significant problems, abuses or
deficiencies relating to the administration of programs. For the purpose
of this section, we used the definition of significant
as set forth in the Federal Managers' Financial Integrity Act.
(3) Corrective action has been completed on all significant
recommendations which were described in the previous semiannual
reports.
(4) Four matters were referred to prosecutorial authorities. There were
no prosecutions or convictions.
(5) One report was made to the Chairman that information or assistance
requested by the Inspector General was unreasonably
refused or not provided. See page 13.
(6) A listing by subject matter is located on page 21.
(8),(9) One audit report was issued during this period; the report had
no recommendations on questioned costs or funds that could be put to
better use. See Tables 1 and 2.
(10) There are no audit reports issued before the commencement of the
reporting period for which no management decision has been made by the end
of the reporting period.
(11) No significant revised management decisions were made during the
reporting period.
(12) There were no significant management decisions with which I am in
disagreement.
AUDIT REPORTS BY
SUBJECT MATTER
Report Title and
Number
Questioned Costs
Unsupported Costs
Ineligible Costs
Funds To Be Put To Better
Use
ADMINISTRATIVE
Review of the Case Activity Tracking System,
OIG-AMR-28
0
0
0
0
Table 1 REPORTS WITH
QUESTIONED COSTS
Dollar Value
Number of Reports
Questioned Costs
Unsupported Costs
A. For which no management decision has been
made by the commencement of the
period
0
0
0
B. Which were issued during the reporting
period
0
0
0
Subtotals (A+B)
0
0
0
C. For which a management decision was made during the
reporting period
0
0
0
(i) Dollar value of disallowed costs
0
0
0
(ii) Dollar value of costs not
disallowed
0
0
0
D. For which no management decision has been
made by the end of the reporting period
0
0
0
Reports for which no management decision
was made within six months of issuance
0
0
0
Table
2 REPORTS WITH RECOMMENDATIONS
THAT FUNDS BE PUT TO BETTER USE
Number of Reports
Questioned Costs
A. For which no management
decision has been made by the commencement of
the period
0
0
B. Which were issued during the reporting
period.
0
0
Subtotals (A+B)
0
0
C. For which a management decision was made during the
reporting period
0
0
(iii) Dollar value of disallowed costs
0
0
(iv) Dollar value of costs not
disallowed
0
0
D. For which no management decision has been
made by the end of the reporting period
0
0
Reports for which no management decision
was made within six months of issuance
0
0